                                                           EMPLOYMENT AND TRAINING
                                                           ADMINISTRATION


             Office of Inspector General—Office of Audit




                                                           RECOVERY ACT: ETA IS MISSING
                                                           OPPORTUNITIES TO DETECT AND COLLECT
                                                           BILLIONS OF DOLLARS IN OVERPAYMENTS
                                                           PERTAINING TO FEDERALLY-FUNDED
                                                           EMERGENCY BENEFITS




                                                                              Date Issued:   January 31, 2012
02-A12-345-67-890                                                          Report Number:    18-12-001-03-315
U.S. Department of Labor                                     January 2012
Office of Inspector General
                                                             RECOVERY ACT: ETA IS MISSING OPPORTUNITIES TO
Office of Audit
                                                             DETECT AND COLLECT BILLIONS OF DOLLARS IN
                                                             OVERPAYMENTS PERTAINING TO FEDERALLY-
BRIEFLY… 
                                                   FUNDED EMERGENCY BENEFITS
Highlights of Report Number 18-12-001-03-315, issued
to the Assistant Secretary for Employment and Training.      WHAT OIG FOUND

WHY READ THE REPORT                                          The OIG found that ETA did not effectively apply key
                                                             controls related to the overpayment detection process
The Unemployment Insurance (UI) program is designed          to federally-funded emergency benefits, leaving this
to provide benefits to individuals out of work, generally    portion of the UI program vulnerable to billions of dollars
through no fault of their own, for periods between jobs.     in undetected overpayments.
Over the past 3 years, the UI program has grown to
unprecedented levels, paying nearly $318 billion in          For the $126 billion in federally-funded emergency
benefits to unemployed workers. Of this amount,              benefits, ETA used a questionable methodology when
$126 billion was for federally-funded emergency              estimating the amount of overpayments. As a result,
benefits, comprising Emergency Unemployment                  ETA’s $6.9 billion estimate of overpayments related to
Compensation and Federal Additional Compensation.            the federally-funded emergency benefits may be
UI’s rate of overpayments (11.2 percent) was the third       significantly misstated.
largest of any benefits program in fiscal year 2010. ETA
estimated nearly $32 billion in overpayments occurred        ETA did not measure the effectiveness of improper
over the past 3 years and $17.2 billion of that total        payment detection activities for the $126 billion in
should be detectable by the states. Nearly $6.9 billion of   federally-funded emergency benefits. Using data
the $17.2 billion in detectable overpayments pertained       provided by ETA, we determined states detected only
to federally-funded emergency benefits. The growth in        $1.3 billion (19 percent) of the estimated $6.9 billion in
the UI program presents challenges to ETA, not only in       detectable overpayments from federally-funded
implementing the UI program, but in detecting                emergency benefits.
overpayments in UI benefits.
                                                             The lack of a performance measure for detecting
                                                             federally-funded emergency benefit overpayments
WHY OIG CONDUCTED THE AUDIT                                  hampered ETA’s ability to monitor state performance.
                                                             As a result, ETA may be missing opportunities to detect
We initiated an audit to determine if ETA had effective      and collect billions of dollars in overpayments of
controls over the states’ detection of overpayments of       federally-funded emergency benefits.
traditional state-funded UI benefits and federally-funded
emergency benefits. This report presents the results         WHAT OIG RECOMMENDED
and findings related to the federally-funded emergency
UI benefits. Our audit work was conducted at ETA’s           The OIG recommended that the Assistant Secretary for
Office of Unemployment Insurance located in                  Employment and Training take steps to (1) develop and
Washington, D.C.                                             implement a valid and reliable method for estimating the
                                                             rate of detectable overpayments in the federally-funded
                                                             emergency programs, (2) establish a valid performance
READ THE FULL REPORT                                         measure for federally-funded emergency programs, (3)
                                                             increase ETA monitoring regarding improper payment
To view the report, including the scope, methodology,        detection activities related to federally-funded
and full agency response, go to: http://www.oig.dol.gov      emergency programs, and (4) develop and implement a
/public/reports/oa/2012/18-12-001-03-315.pdf.                plan to increase detection efforts over the estimated
                                                             $5.6 billion in detectable overpayments related to
                                                             federally-funded emergency benefits that states did not
                                                             identify in the past 3 years.

                                                             ETA generally did not agree with our conclusions or
                                                             recommendations 1 and 2, and did not fully address
                                                             recommendations 3 and 4.
                                                               U.S. Department of Labor – Office of Inspector General




Table of Contents
Assistant Inspector General’s Report ......................................................................... 1



Results In Brief .............................................................................................................. 3



Objective — Did the Employment and Training Administration have effective 

            controls over the detection of overpayments by states for the 

            federally-funded emergency program? ................................................. 5


          ETA lacked effective controls over the detection of overpayments by 

          states for the federally-funded emergency program, leaving the program


          vulnerable to undetected overpayments arising from error, fraud, and 

          abuse.................................................................................................................... 5



          Finding 1 — ETA did not establish valid overpayment estimates for 

                     federally-funded emergency benefits. ............................................... 6


          Finding 2 — ETA did not measure the effectiveness of states in identifying 

                     federally-funded overpayments......................................................... 8


          Finding 3 — ETA could not effectively monitor state performance in 

                     identifying federally-funded overpayments...................................... 10


          Finding 4 — ETA is missing opportunities to detect and collect additional 

                     federally-funded overpayments....................................................... 10



Recommendations ...................................................................................................... 12



Exhibits
          Exhibit 1 Improper Payments Detection Measure as of 

                    September 30, 2010............................................................................. 15


          Exhibit 2 Comparison of Improper Payment Detection Performance.................. 17



Appendices
          Appendix A Background ..................................................................................... 21


          Appendix B Objective, Scope, Methodology, and Criteria .................................. 25


          Appendix C Acronyms ........................................................................................ 27


          Appendix D ETA Response to Draft Report ....................................................... 29


          Appendix E Acknowledgements ......................................................................... 45






                                                                       Missed Opportunities to Detect UI Overpayments
                                                                                         Report No. 18-12-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                  Missed Opportunities to Detect UI Overpayments
                                    Report No. 18-12-001-03-315
                                                        U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                              Office of Inspector General
                                                      Washington, D.C. 20210




January 31, 2012

                                Assistant Inspector General’s Report



Ms. Jane Oates
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

The Unemployment Insurance (UI) program is designed to provide benefits to
individuals out of work, generally through no fault of their own, for periods between jobs.
In order to be eligible for benefits, jobless workers must show that they were separated
from work through no fault of their own, met minimum length of time and wage
requirements before they were separated, and must be able and available for work. The
program is administered at the state level, but is funded by both state and federal
monies. According to data reported by Department of Labor (DOL) at the time of our
fieldwork, more than 14 million individuals (9.1 percent of the covered workforce 1 ) are
currently unemployed. Of those unemployed, more than 3.4 million individuals claimed
UI state-funded benefits and nearly 7.2 million individuals claimed state and/or federally-
funded UI benefits. The DOL Employment and Training Administration (ETA) is
responsible for oversight of the UI program to ensure states operate it effectively and
efficiently. This oversight includes ensuring that states do not provide unemployment
compensation (UC) to ineligible recipients and ensuring that states detect these
overpayments when they do occur.

From October 1, 2007, to September 30, 2010, the UI program grew to unprecedented
levels, paying nearly $318 billion in benefits to unemployed workers. Of this amount,
$126 billion was for federally-funded emergency benefits, comprising Emergency
Unemployment Compensation (EUC) and Federal Additional Compensation (FAC). 2
UI’s rate of overpayments (11.2 percent) was the third largest of any benefits program in
fiscal year (FY) 2010. 3 DOL estimated that nearly $32 billion in overpayments occurred
over the past 3 years. The growth in the UI program presented challenges to ETA, not
only in implementing the UI program, but in detecting overpayments in UI benefits. ETA


1
  The covered workforce includes people who did any work at all for pay or profit. This includes all part-time and 

temporary work, as well as regular full-time, year-round employment. Persons also are counted as employed if they


have a job at which they did not work during the survey week because of situations such vacations or illness.


2
  A portion of the emergency benefits ($51.3 billion of the $126 billion) was funded with funds from the American


Recovery and Reinvestment Act of 2009. 

3
  For our reporting purposes, we included data that ETA reported during FYs 2008-2010.



                                                               Missed Opportunities to Detect UI Overpayments
                                                          1                      Report No. 18-12-001-03-315
                                          U.S. Department of Labor – Office of Inspector General



has recently undertaken several initiatives designed to improve overpayment detection
efforts, including the following:

   •		 Facilitating state implementation of the National Directory of New Hire cross
       match to address the largest cause of UI improper payments — earnings while
       benefits are being paid,

   •		 Hosting a National Unemployment Insurance Integrity Professional Development
       Conference in April 2010 in order to provide a forum for disseminating successful
       practices for preventing, detecting and recovering UI overpayments,

   •		 Holding 10 training sessions with more than 400 state staff during FYs 2008 and
       2009 in order to improve the quality and accuracy of initial UI eligibility
       determinations, and

   •		 Implementing the Separation Information Data Exchange System, which will
       improve the accuracy of claimant eligibility determinations — the second largest
       cause of improper payments by enabling state agencies to obtain more timely
       and complete information regarding the reasons that UI applicants were
       separated from work.

Based on the results of the Benefit Accuracy Measurement (BAM) survey, ETA annually
estimates the amounts of overpayments it believes should be detectable by states
through their normal improper payment detection activities, known as Benefit Payment
Control (BPC) activities. Not all overpayments are easily detected or cost beneficial to
detect. ETA has established an annual performance measure for states to detect at
least 50 percent of the amount estimated to be detectable. For the 3-year period we
reviewed, ETA estimated that $17.2 billion of the total estimated $32 billion of
overpayments should be detectable by the states. ETA’s estimate was based on
samples of state-funded benefit programs only. ETA then applied the results to all
benefits, including federally-funded emergency benefits. Nearly $6.9 billion of the $17.2
billion detectable overpayments pertained to federally-funded emergency benefits.

ETA established three key controls for measuring how well states were doing in
identifying detectable UI overpayments.

   •		 The Estimate – Establishing a valid estimate is a key control because it serves as
       a benchmark to measure how well states are doing in detecting overpayments.
       ETA conducts a statistical survey known as the BAM to estimate the rate and
       amount of overpayments in the UI program. This report focuses on two of the
       estimates produced by the process – an overall estimate of the amount of
       overpayments that occur within the UI programs and an estimate of the amount
       of overpayments that should be detected by the states through normal program
       operations.



                                                Missed Opportunities to Detect UI Overpayments
                                            2                     Report No. 18-12-001-03-315
                                            U.S. Department of Labor – Office of Inspector General



   •		 The Performance Goal – Establishing a performance goal is a key control for
       measuring how well states are doing in detecting overpayments. ETA established
       a performance goal for states to identify at least 50 percent of estimated
       detectable overpayments.

   •		 The Quality Plan – ETA requires states that do not meet the minimum
       performance goal to include in their State Quality Service Plans (SQSP) the
       corrective actions necessary to meet the minimum performance goal and the
       milestones for completing those actions. On a quarterly basis, ETA’s regions
       monitor each state’s efforts in achieving the performance goal.

As part of our overall audit objective, which was to determine whether DOL had
effective controls over the states’ detection of overpayments for the UI federal and state
programs, we evaluated ETA’s controls over the federally-funded portion of the UI
program. We are issuing this report to address issues we found related to these
controls. We will be issuing a subsequent report that will address issues we found
related to the controls over the overpayment detection process for state-funded
programs.

The audit covered UI overpayments reported between FYs 2008 and 2010.

Our work included tests of controls over both estimated and actual improper payment
data reported by ETA regional offices and the states. We used survey questionnaires
sent to all ETA regional offices and states to evaluate the extent of ETA’s oversight.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

ETA’s initiatives are significant and positive steps toward increasing the amount of
overpayments detected by the states. However, we found weaknesses in controls
related to overpayment detection of federally-funded emergency benefits that are not
necessarily addressed by its recent initiatives. ETA did not effectively apply its three key
controls related to the overpayment detection process to federally-funded emergency
benefits, leaving this portion of the UI program vulnerable to billions of dollars in
undetected overpayments. In conjunction with the DOL’s Office of the Chief Financial
Officer, ETA applied a methodology designed for state-funded benefits to estimate the
amount of overpayments in federally-funded emergency programs that it subsequently
reported to Office of Management and Budget (OMB) in accordance with the Improper
Payment Elimination Recovery Act (IPERA). As a result, the estimated $6.9 billion in

                                                 Missed Opportunities to Detect UI Overpayments
                                             3                     Report No. 18-12-001-03-315
                                                        U.S. Department of Labor – Office of Inspector General



overpayments of federally-funded emergency benefits may have been significantly
misstated.

Furthermore, ETA did not measure the effectiveness of improper payment detection
activities for the $126 billion in federally-funded emergency benefits. ETA reported that
the UI program met its performance goal by detecting more than 52 percent of
detectable overpayments. However, ETA only reported on state-funded benefits and did
not include how well states were doing in detecting overpayments from federally-funded
emergency benefits. Using data provided by ETA, we determined states detected only
$1.3 billion (19 percent) of the estimated $6.9 billion in detectable overpayments from
federally-funded emergency benefits.
When federally-funded emergency benefits are included in the performance measure,
the overall performance of states drops to an approximately 34 percent detection rate
for overpayments, well below the 50 percent performance goal. Specifically, 44 of 52
states 4 (85 percent) did not meet the performance goal when including federally-funded
emergency benefits. In contrast, ETA reported that only 21 of 52 states (40 percent) did
not meet the goal for the same period.

Controls for monitoring the detection of overpayments related to federally-funded
emergency benefits were also not effective. ETA told us there was no requirement to
report detections for the federally-funded emergency benefits even though Executive
Order (EO) 13520 of November 20, 2009, specifically states that federal agencies are
required to identify and measure improper payments. The EO does not exempt
federally-funded emergency benefits from this requirement.

ETA conducted on-site reviews of the federally-funded emergency benefits in all states
and collected the data on overpayment detections and recoveries for the federally-
funded emergency benefits. However, because the ETA performance goals for the
states pertained to only state-funded benefits, ETA and its regions could not objectively
measure how well states were doing in identifying improper payments related to
federally-funded emergency benefits.

ETA did not effectively apply its three key controls related to the overpayment detection
process to federally-funded emergency benefits; as a result, it may be missing
opportunities to increase the detection and collection of additional overpayments.
During the period FY 2008-2010, states detected $1.3 billion of the estimated $6.9
billion in federally-funded overpayments. If ETA had established and states had met the
same detection goal for federally-funded overpayments that was in place for state-
funded overpayments (50 percent), an additional $2.15 billion of overpayments would
have been detected and potentially recovered. This $2.15 billion could then have been
put to better use for paying legitimate claims for UC.

We recommend that the ETA Assistant Secretary take steps to (1) develop and
implement a valid and reliable method for estimating the rate of detectable

4
    Includes the District of Columbia and Puerto Rico

                                                             Missed Opportunities to Detect UI Overpayments
                                                         4                     Report No. 18-12-001-03-315
                                           U.S. Department of Labor – Office of Inspector General



overpayments in the federally-funded emergency programs, (2) establish a valid
performance measure for federally-funded emergency programs, (3) increase ETA
monitoring regarding improper payment detection activities related to federally-funded
emergency programs, and (4) develop and implement a plan to increase detection
efforts over the estimated $5.6 billion in detectable overpayments related to federally-
funded emergency benefits that states did not identify in the past 3 years.

In response to our draft report, ETA did not agree with the recommended actions to
establish a valid and reliable method for estimating overpayments in the
federally-funded emergency programs, or to establish a valid performance measure for
the federally-funded emergency programs.

ETA stated that it was not desirable or feasible to implement a new sampling process to
estimate overpayments for federally-funded emergency programs for the following
reasons: the temporary nature of such programs; states’ lack of administrative
resources needed to add a new audit program for such programs; and the complexity of
the designs of the various different federally-funded emergency programs. While
developing a new sampling process may not be feasible; ETA should consider
expanding the BAM sample to include all UI benefit payments regardless of funding
source. By doing so, ETA would ensure that future overpayment estimates cover all UI
programs, including any temporary federally-funded emergency programs that may be
put into place.

Regarding the recommendation to establish a valid performance measure for federally-
funded emergency programs, ETA stated that there is no requirement in EO 13520, the
Improper Payments Information Act, or IPERA to establish a performance measure for
improper payment detections. While not required, we believe such a measure would
enable ETA to better assess states’ effectiveness in identifying overpayments of
federally-funded emergency benefits.

ETA’s response is included in its entirety in Appendix D.


RESULTS AND FINDINGS

Objective — Did the Employment and Training Administration have effective
            controls over the detection of overpayments by states for the
            federally-funded emergency program?

      ETA lacked effective controls over the detection of overpayments by states for
      the federally-funded emergency program, leaving the program vulnerable to
      undetected overpayments arising from error, fraud, and abuse.

ETA did not effectively apply its key controls related to the overpayment detection
process to federally-funded emergency benefits. For the $126 billion in federally-funded
emergency benefits, ETA used questionable methodology when estimating the amount

                                                Missed Opportunities to Detect UI Overpayments
                                            5                     Report No. 18-12-001-03-315
                                           U.S. Department of Labor – Office of Inspector General



of overpayments. Therefore, not only is ETA’s $6.9 billion estimate of overpayments
unreliable, it may be significantly misstated. ETA also failed to establish a performance
measure to determine the effectiveness of improper payment detection activities related
to federally-funded emergency benefits, and its reports significantly overstated how well
states were doing in detecting overpayments. Because a performance measure wasn’t
established for the federally-funded emergency benefits, ETA and its regions had no
way to effectively monitor how well states were doing in detecting overpayments related
to federally-funded emergency benefits. As a result, ETA may be missing opportunities
to detect and collect billions of dollars in additional overpayments from federally-funded
emergency benefits.

Finding 1 — ETA did not establish valid overpayment estimates for federally-
            funded emergency benefits.

Federally-funded emergency benefits consist of EUC and FAC. For FYs 2008 through
2010, states paid $126 billion in federally-funded emergency benefits and ETA
estimated that nearly $6.9 billion in federally-funded emergency benefits were paid
improperly.

Establishing a valid estimate is a key control because it serves as a benchmark to
measure how well states are doing in detecting overpayments. Both IPERA and OMB
Circular A-123, updated in April 2011, state the head of the relevant agency shall
produce a statistically valid estimate or an estimate that is otherwise appropriate using a
methodology approved by the Director of OMB. OMB Circular A-123 also requires
agencies to incorporate refinements to their improper rate methodologies based on
recommendations from agency staff or auditors. Agencies are required to identify all
programs and activities that may be susceptible to significant overpayments.

Annually, ETA estimates the amount of overpayments within the state-funded benefit
programs based on a projected amount of overpayments found in a statistical sample of
claimant benefit case reviews. However, as illustrated by the chart below, a similar
process was not established to estimate the amount of overpayments for the federally-
funded emergency benefits, even though the federally-funded benefits have grown to
surpass the state-funded benefits.




                                                 Missed Opportunities to Detect UI Overpayments
                                             6                     Report No. 18-12-001-03-315
                                           U.S. Department of Labor – Office of Inspector General




                 State versus Federal Emergency Benefits
                              FYs 2008-2010
                                    ($ in millions)
           $100,000

             80,000

             60,000                                             State
             40,000                                             Federal Emergency

             20,000

                 0
                       2008        2009         2010


Instead, ETA assumed that the rate of overpayments it determines for state-funded
benefits would apply also to federally-funded emergency benefits. This was not a
statistically valid estimate and ETA provided no documentation to show that OMB
actually approved its methodology to estimate the federally-funded overpayments based
solely on sampling state-funded benefits. ETA told us that in conjunction with the Office
of the Chief Financial Officer and after consultation with OMB in October and November
2009, it applied the overpayment rates from the state-funded benefits to all UC outlays.
ETA further stated that OMB accepted the estimated amount of overpayments. Our
review of documentation ETA provided us showed that OMB did not specifically
approve using the BAM error rate for all outlays. Even if it did, decisions made almost 2
years ago are not prudent in today’s environment given (1) the magnitude of increase in
emergency benefits (from less than $39 Billion in FY 2009 to nearly $84 Billion in FY
2010) and (2) the subsequent requirements of IPERA and OMB Circular A-123, which
specifically require Director of OMB approval for deviations from statistical sampling and
also require refinements based on auditor recommendations.

ETA has not done any testing to confirm whether its assumption is valid. We believe
the estimate could have significantly misstated the amount of improper payments
related to the federal programs for the following reasons.

    •		 The federal and state programs have different eligibility requirements. For
        example, people who have part-time jobs, but make below certain dollar
        thresholds, may be eligible for federally-funded benefits but not state-funded
        benefits.

    •		 Considering the severity of the economic downturn, there is a greater risk that
        displaced workers will continue to claim benefits even when re-employed to
        subsidize their lessened earnings. DOL’s Bureau of Labor Statistics News
        Release dated August 26, 2010, had shown that the economic downturn from

                                                 Missed Opportunities to Detect UI Overpayments
                                            7                      Report No. 18-12-001-03-315
                                          U.S. Department of Labor – Office of Inspector General



       2007 to 2009 was far more severe than previous recessions. Only 45 percent of
       displaced workers who were subsequently re-employed reported earning as
       much or more than they did prior to displacement, and 36 percent reported
       earning losses of 20 percent or greater. This suggests a heightened risk that
       claimants will claim benefits after returning to work. Claiming benefits after
       returning to work represents the largest cause of UI overpayments.

ETA told us it considers the federally-funded emergency benefits to be temporary and
episodic and it did not have the staff or technological resources to conduct the sampling
necessary for determining the estimate of overpayments in these benefit programs.
Specifically, ETA stated:

    •		 It would take an estimated 18 months or longer to modify the database design
        and the management and reporting software in order to implement a data
        collection program for the current federally-funded emergency benefits. Also,
        since the current federally-funded emergency benefits differ in design from
        previous emergency programs, the data collection program may not be
        applicable to future federally-funded emergency programs.

    •		 While states are detecting payments for the federally-funded emergency
        benefits, they do not have sufficient resources to add a new collection program
        for the federally-funded emergency benefits.

While developing a new process may not be feasible, ETA should consider expanding
its current BAM sample to include all UI benefits regardless of funding source. By doing
so, ETA would ensure that future overpayment estimates cover all UI programs,
including any temporary federally-funded emergency programs that may be put into
place.

Finding 2 — ETA did not measure the effectiveness of states in identifying
            federally-funded overpayments.

Establishing a performance goal is a key control for measuring how well states are
doing in detecting overpayments. ETA established a performance goal for states to
identify at least 50 percent of estimated detectable overpayments and reported that
states actually identified nearly 53 percent. However, ETA’s improper payment
performance goal did not include federally-funded emergency benefits. ETA told us
there was no requirement to report detections for the federally-funded emergency
benefits even though EO 13520 of November 20, 2009, specifically states that federal
agencies are required to identify and measure improper payments. The EO does not
exempt federally-funded emergency benefits from this requirement. ETA further stated
that the absence of a performance goal does not preclude the ability to monitor state
performance. However, we believe a performance goal provides an objective measure
of how well states are doing at detecting overpayment. Since ETA did not establish a
performance goal for the federally-funded emergency benefits, it was unable to
measure the effectiveness of improper payment detection by states for these programs.

                                                Missed Opportunities to Detect UI Overpayments
                                            8                     Report No. 18-12-001-03-315
                                                       U.S. Department of Labor – Office of Inspector General



Based on data ETA provided us, we determined that the rate of detection was only
about 19 percent of estimated overpayments pertaining to federally-funded emergency
benefits, or about $1.3 billion detected versus about $6.9 billion estimated to be
detectable.

ETA measures state performance using the improper payment detection core measure.
The core measure compares the estimated detectable overpayments to the actual
overpayments states identified for a 3-year period. As of September 30, 2010, the
improper payment detection core measure performance report showed that states were
identifying nearly 53 percent of estimated detectable overpayments during FYs 2008-
2010 (see Exhibit 1). However, this information did not include the federally-funded
emergency benefits.

ETA did not break down its estimate of $17.2 billion in detectable overpayments for FYs
2008-2010 to determine how much of the estimate pertained to federally-funded
emergency benefits. However, applying ETA’s rate of detectable overpayments to
claims information for both federally-funded and state-funded benefits that ETA
provided us, we determined that $6.9 billion of the $17.2 billion estimated detectable
pertained to federally-funded emergency benefits. We then compared that estimated
amount to the actual amount of federally-funded benefits states detected. We
determined that the rate of detection was only about 19 percent for federally-funded
emergency benefits (about $1.3 billion detected versus about $6.9 billion estimated).
Overall, ETA’s rate of detection when including federally-funded emergency benefits
was only about 34 percent of the estimated overpayments for FYs 2008-2010.

Table 1: Core Measure with Federal Funds Included (in millions)
               Amount     Detectable    Estimated         Actual                                 Overall
                Paid        Rate 5     Detectable     Overpayments                               Rate of
                                      Overpayments      Detected                                Detection
  All UI      $317,873      5.42%        $17,228          $5,861                                 34.02%
  Funds

ETA reported that 21 of 52 states (40 percent) did not meet the performance goal for
FYs 2008-2010. However, when including federally-funded emergency benefits, 44 of
52 states (85 percent) did not meet the performance goal (see Exhibit 2).

As with the estimate, ETA told us that even if an overpayment rate for the
federally-funded emergency benefits could be reliably estimated and a performance
measure for detection effectiveness could be constructed, it did not believe it was
feasible or desirable to implement a new process for federally-funded emergency
benefits.




    ETA’s BAM error rate for detectable overpayments
5



                                                            Missed Opportunities to Detect UI Overpayments
                                                        9                     Report No. 18-12-001-03-315
                                            U.S. Department of Labor – Office of Inspector General




Finding 3 — ETA could not effectively monitor state performance in identifying
            federally-funded overpayments.

ETA’s SQSP is its third key control related to the identification of detectable
overpayments. If states are not meeting the minimum performance goal of identifying 50
percent of detectable overpayments, Unemployment Insurance Program Letter 14-05
and ETA Handbook 336 require them to include Corrective Action Plans (CAP) in their
SQSP for the actions necessary to meet the minimum performance goal and the
milestones for completing these actions. On a quarterly basis, ETA’s regions monitor
each state’s efforts in achieving the performance goal. ETA told us that for FY 2012, it
had established a requirement for all states to address UI integrity as part of their
SQSP. ETA told us that it provided states with detailed data on the root causes of
improper payments and is providing intensive technical assistance to support the
development of comprehensive plans to prevent, detect, and recover UI overpayments.

We found that ETA had established a review process for states’ overpayment
detections related to the federally-funded emergency programs. ETA conducted on-site
reviews in every state and provided technical assistance and support for states’
implementation of the programs. However, because the performance goals that ETA
established pertained only to state-funded programs, ETA and its regions had no way to
effectively monitor how well states were doing in identifying overpayments related to
federally-funded emergency benefits.

Once ETA establishes a valid estimate and performance goals for identifying detectable
overpayments related to federally-funded emergency benefits, it will need to require
states that do not meet the performance goals to include CAPs in their SQSPs and
monitor states’ efforts in meeting the goals.

Finding 4 — ETA is missing opportunities to detect and collect additional
            federally-funded overpayments.

IPERA requires federal agencies to report on whether or not they have the internal
controls, human capital, information systems, and other infrastructures needed to
reduce improper payments to a level below which further expenditures would cost more
than the amount such expenditures would save in preventing or recovering improper
payments. ETA has not developed a plan to accurately detect overpayments from prior
years, in spite of the knowledge that substantial undetected overpayments occurred.
Such a plan should include an analysis to identify the resources needed at both the
federal and state levels to accurately detect overpayments to the point at which the
expenditures for such detections would cost more than the overpayments detected.

The sharp increase in UI benefit claims, not only in federally-funded emergency
benefits, but state-funded benefits as well, has challenged the ability of states to detect
UI overpayments. ETA officials and officials in 14 states told us that over the past 3
years, states had diverted their staff from improper payment detection efforts to claims

                                                  Missed Opportunities to Detect UI Overpayments
                                             10                     Report No. 18-12-001-03-315
                                           U.S. Department of Labor – Office of Inspector General



processing. In addition, ETA officials told us that the computer systems of states were
limited when dealing with the substantial influx of benefits and overpayments related to
the federally-funded emergency benefits. However, a prior ETA study in 2001
concluded that increasing detection activities has a high payoff — between $4 and $5
recovered for every dollar invested. The study concluded that the ratio of overpayments
detected to additional dollars spent on detection activities (including improper payment
detection and recovery) was about 8.8 to1. The study’s conclusion was reinforced by
testimony given by the Executive Director, Utah Department of Workforce Services, to
the Senate Committee on Finance on June 22, 2011. In her testimony, the Executive
Director stated that for every dollar invested in integrity efforts, Utah collects $5.50 in
benefit overpayments. When we questioned ETA officials about the reasons they
haven’t developed a plan, the officials told us that investigating claims is resource
intensive and that states do not have the resources to conduct additional investigations.
ETA also noted that because of a statutory limitation, states can only offset 50 percent
of future EUC payments with current EUC overpayments. However, this does not
preclude states from collecting the entire amount of EUC overpayments.

We recognize that substantial investment in improper payment detection activities could
be required to more accurately identify recoverable overpayments and return them to
their proper state or federal account within the UI Trust Fund. However, given the fact
that the resources of states have been strained because of the spike in UI claims for
both the federally-funded and state-funded benefits, and given the rapid growth and the
magnitude of the federally-funded emergency benefits, the expansion of improper
payment detection activities to maximize recovery of additional overpayments would
appear to be a prudent investment. ETA data has shown states have only identified
$1.3 billion of the estimated $6.9 billion in detectable overpayments related to
federally-funded emergency benefits, which means that states have not detected about
$5.6 billion in detectable overpayments related to federally-funded emergency benefits.
If all states met the ETA established goal of 50 percent, nearly $2.2 billion in additional
overpayments related to federally-funded emergency benefits would have been
identified and subjected to collection efforts.

Furthermore, developing a plan to detect additional overpayments would help ETA
comply with IPERA, which requires federal agencies to report on actions planned or
actions taken to reduce overpayments to a level below which further expenditures to
reduce overpayments would cost more than the amount recovered from such
expenditures.




                                                 Missed Opportunities to Detect UI Overpayments
                                            11                     Report No. 18-12-001-03-315
                                          U.S. Department of Labor – Office of Inspector General



RECOMMENDATIONS

We recommend that the ETA Assistant Secretary take steps to:

1. Develop and implement a valid and reliable method for estimating the rate of
   detectable overpayments in the federally-funded emergency programs.

2. Establish a valid performance measure for federally-funded emergency programs.

3. Increase ETA monitoring regarding improper payment detection activities related to
   federally-funded emergency programs.

4. Develop and implement a plan to increase detection efforts over the estimated
   $5.6 billion in detectable overpayments related to federally-funded emergency
   benefits that states did not identify in the past 3 years.


We appreciate the cooperation and courtesies that ETA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                Missed Opportunities to Detect UI Overpayments
                                           12                     Report No. 18-12-001-03-315
             U.S. Department of Labor – Office of Inspector General




Exhibits 





                   Missed Opportunities to Detect UI Overpayments
              13                     Report No. 18-12-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                   Missed Opportunities to Detect UI Overpayments
              14                     Report No. 18-12-001-03-315
                                                           U.S. Department of Labor – Office of Inspector General



                                                                                                                     Exhibit 1
Improper Payments Detection Measure as of September 30, 2010

          Overpayment Detection Core Measure Report
                           Estima    BAM Ov~y me nts and A.rmunt Esbtb{is ed t?r BPC
                                                  BAM Oper.        Estimated           BPC                  BPCf
               Region      ST       Amount Paid
                                                                   Amt. OP 1t      Established         +
                                                    Rate 1t                                                 Est OP
          Boston           CT             $905,575,944           2.66%        $24,101p86       $9,928,640   41.19%
                           MA           $2P23,282,587            2.34%        $47,310,748     $26,391,066   55.78%
                           ME             $183,337,205           4.54%         $8,318,765      $4,991,930   60.01%
                           NH           & $166,466,266           3.38%       & $5,622,944      $3,945,796   70.17%
                           NJ           $2p94,381,268            7.28%       $196,034p44     $132,256,213   67.47%
                           NY           $3,495,956,198           5.75%       $200,947,982     $95,611,077   47.58%
                           PR             $249,235,187           6.85%        $17,081,587      $4,901,956   28.70%
                            RI            $307,341P52            4.37%        $13,429,767      $6,493,239   48.35%
                           VT             $133,362p4O            2.99%         $3,990,263      $2,277,631   57.08%

          Philadelphia     DC               $150,522~51          6.49%         $9,768,548      $4,791,404   49.05%
                           DE               $ 148,235~22         6.53%         $9,678,360      $3,591,697   37.11%
                           MD             $776,665p35            5.03%        $39,092,533     $35,831,815   91.66%
                           PA       &   $3,522,028 P64           6.01%   &   $211,837,387     $73P09,653    34.46%
                           VA               $725,769~18          6.57%        $47,710,532     $20,296,756   42.54%
                           WV               $223,510P24          2.73%         $6,106,031      $3,267,336   53.51%

          Atlanta          AL             $437,294,461           5.90%        $25,784,935     $19,152,180   74.28%
                           FL           $2,146,267 P64           5.13%       $110,180,147     $73,152,001   66.39%
                    @      GA           $lP44,820,481            2.49%        $25,979,060     $18,368,776   70.71%
                           KY             $682,673,750           2.11%        $14,373,315     $13,058,162   90.85%
                           MS             $224,034,715           7.32%        $16,394,570     $14,606,014   89.09%
                           NC           $1,791,312p65            5.39%        $96,602P61      $32,299,846   33.44%
                           SC             $617,434p97            6.34%        $39,162,122     $15,661,424   39.99%
                           TN             $656,342P56            5.63%        $36,956,745     $15,492P11    41.92%

          Dallas           AR               $453,605,509       8.99%           $40,772,362     $6,963p80    17.08%
                    @      CO               $599,170,758       5.05%           $30,230,518    $16,530,978   54.68%
                           LA           &   $311,041,796      17.10%         & $53,186,794    $13,789,992   25.93%
                    @      MT               $102,946,981       5.07%            $5,224,202     $3,454,662   66.13%
                           ND                $ 62,556~46       3.07%            $1,920,797     $1,184,474   61.67%
                           NM               $225,121P84        6.73%           $15,160,549     $8,974,756   59.20%
                           OK               $ 326,191~92       3.71%           $12,lOOP31      $7,932,094   65.55%
                           SD              $40,296,735         3.35%            $1,348,366     $1,259,821   93.43%
                           TX           $2,292,716,939         5.85%          $134,153,364    $96,756,611   72.12%
                           UT             $302,453,153         5.13%           $15,511,354     $9,170,950   59.12%
                           WY              $85,781,311         5.66%            $4,854,975     $2,799,833   57.67%

          Chicago          IA             $543,439p58            5.85%        $31,769~01      $14,226,889 44.78%
                           IL           $3,064,298,640           8.25%       $252,699,727    $100,664~16  39.84%
                           IN           $1,248,661P91            4.88%        $60,924,356     $34,383p96 56.44%
                           KS             $467,266,102           5.58%        $26,080,988     $14,179,352 54.37%
                           MI           $2,563,951,287           5.64%       $144,628~60      $87,091~66 60.22%
                           MN           $lP24,891,831            6.00%        $61,533,811     $36,572,141 59.43%




                                                                   Missed Opportunities to Detect UI Overpayments
                                                            15                       Report No. 18-12-001-03-315
                                                     U.S. Department of Labor – Office of Inspector General


                          MO          $719,784,117          5.92%       $42,605,539      $17,956,883   42.15%
                          NE          $133,62SP62           5.59%        $7,471,238       $4,576,568   61.26%
                          OH        $1,752,797,297          4.86%       $85,255,768      $73,479,997   86.19%
                          WI        $1,257,861,999          4.67%       $58,787,482      $31,023,773   52.77%

San Francisco             AK          $145,634,915          5.76%        $8,394,790      $5,151,734 61.37%
                          AZ          $596,258,945          9.62%       $57,361,900     $25,599,657 44.63%
                          CA        $SPS4,885,367           3.87%      $311,348,254    $146,604,579 47.09%
                          HI          $269,292,877          1.22%        $3,282,492      $1,245,002 37.93%
                          ID          $268,164,552          5.10%       $13,675,700      $7,552,265 55.22%
                          NV          $715,092,830          8.70%       $62,207,768     $28,499,047 45.81%
                          OR        $1,021,443,822          9.68%       $98,843,750     $17,905,163 18.11%
                          WA        $1,498,430p95           3.43%       $51,427,713     $80,128,164155.81 %

                          US      $53,453,514,541           5.42%    $2,899,227,981 $1,525,036P65 52.60%


Notes:
BAM estimates are for 04/01/2007 - 03/31/2010.
BPC data are for 10/01/2007 - 09/30/2010.
Amount paid is average annual UI benefits paid in population from which BAM samples were selected.

8.   BAM data estimated due to missing reports.
* BPC total estimated due to missing reports.
# Includes fraud and nonfraud recoverable overpayments; excludes work search, ES registration,
base period wage, and 'other' issues.
+ Excludes penalties assessed for fraud.
@ Excludes quarters in which insufficient BAM and / or BPC data were reported.
Overpayment detection results for these states do not accurately reflect actual performance because of this
data completion issue.
The ratio of the amount of overpayments established (BFC) to the amount of overpayments
estimated by BAM is reported in the highlighted column.
This ratio measures performance for the Detection of Overpayments UI Performs Core Measure.

Prepared by Div. of Performance Management on May 272011




                                                              Missed Opportunities to Detect UI Overpayments
                                                       16                       Report No. 18-12-001-03-315
                                          U.S. Department of Labor – Office of Inspector General



                                                                                    Exhibit 2
Comparison of Improper Payment Detection Performance

                 Improper Payment Detection Performance for FY 2008 - FY 2010
                                               When Excluding          When Including
                                             Federal Funds from        Federal Funds in
                                            Performance Measure Performance Measure
   Boston          	Connecticut (CT)               41.19%                  47.00%
                     Massachusetts (MA)            55.78%                  46.24%
                     Maine (ME)                    60.01%                  11.43%
                      New Hampshire (NH)           70.17%                  26.20%
                      New Jersey (NJ)              67.47%                  30.91%
                      New York (NY)                47.58%                  33.53%
                     Puerto Rico (PR)              28.70%                  25.67%
                      Rhode Island (RI)            48.35%                  31.42%
                      Vermont (VT)                 57.08%                  31.37%
   Philadelphia 	 District of Columbia (DC)        49.05%                  35.03%
                      Delaware (DE)                37.11%                  33.28%
                      Maryland (MD)                91.66%                  35.59%
                      Pennsylvania (PA)            34.46%                  29.44%
                      Virginia (VA)                42.54%                  39.87%
                      West Virginia (WV)           53.51%                  29.72%
   Atlanta            	Alabama (AL)                74.28%                  38.88%
                      Florida (FL)                 66.39%                  39.17%
                      Georgia (GA)                 70.71%                  60.75%
                      Kentucky (KY)                90.85%                  16.53%
                      Mississippi (MS)             89.09%                  30.52%
                      North Carolina (NC)          33.44%                  69.29%
                      South Carolina (SC)          39.99%                  46.74%
                      Tennessee (TN)               41.92%                  40.11%
   Dallas           	Arkansas (AR)                 17.08%                  44.33%
                      Colorado (CO)                54.68%                  29.77%
                      Louisiana (LA)               25.93%                  62.20%
                      Montana (MT)                 66.13%                  29.87%
                      North Dakota (ND)            61.67%                  21.52%
                      New Mexico (NM)              59.20%                  52.44%
                       Oklahoma (OK)               65.55%                  42.48%
                      South Dakota (SD)            93.43%                  59.44%
                       Texas (TX)                  72.12%                  32.01%
                      Utah (UT)                    59.12%                  40.53%
                       Wyoming (WY)                57.67%                  35.68%
   Chicago           	Iowa (IA)                    44.78%                  30.72%
                       Illinois (IL)               39.84%                  47.01%
                       Indiana (IN)                56.44%                  40.07%
                       Kansas (KS)                 54.37%                  11.59%
                       Michigan (MI)               60.22%                  27.23%
                       Minnesota (MN)              59.43%                  15.65%
                       Missouri (MO)               42.15%                  36.74%


                                                Missed Opportunities to Detect UI Overpayments
                                           17                     Report No. 18-12-001-03-315
                                       U.S. Department of Labor – Office of Inspector General




             Improper Payment Detection Performance for FY 2008 - FY 2010
                                           When Excluding           When Including
                                         Federal Funds from        Federal Funds in
                                        Performance Measure     Performance Measure
                   Nebraska (NE)               61.26%                   23.70%
                      Ohio (OH)                86.19%                   82.57%
                   Wisconsin (WI)              52.77%                   24.78%
San Francisco        Alaska (AK)               61.37%                   43.75%
                     Arizona (AZ)              44.63%                   57.54%
                    California (CA)            47.09%                   31.10%
                      Hawaii (HI)              37.93%                   46.82%
                      Idaho (ID)               55.22%                  103.12%
                     Nevada (NV)               45.81%                   41.46%
                     Oregon (OR)               18.11%                   44.59%
                  Washington (WA)             155.81%                   42.64%
US                                             52.60%                   34.02%




                                             Missed Opportunities to Detect UI Overpayments
                                        18                     Report No. 18-12-001-03-315
               U.S. Department of Labor – Office of Inspector General




Appendices 





                     Missed Opportunities to Detect UI Overpayments
                19                     Report No. 18-12-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK

                        BLANK





                   Missed Opportunities to Detect UI Overpayments
              20                     Report No. 18-12-001-03-315
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix A
Background

The UI program is designed to provide benefits to individuals out of work, generally
through no fault of their own, for periods between jobs. In order to be eligible for
benefits, jobless workers must show that they were separated from work through no
fault of their own, and met minimum length of time and wage requirements before they
were separated. The program is administered at the state level, but is funded by both
state and federal monies. Based on data reported by DOL at the time of our fieldwork,
more than 14 million individuals (9.1 percent of the covered workforce) are currently
unemployed. Of those unemployed, more than 3.4 million individuals claimed UI state-
funded benefits and nearly 7.2 million individuals claimed state and/or federally-funded
emergency benefits. The covered workforce includes people who did any work at all for
pay or profit. This includes all part-time and temporary work, as well as regular full-time,
year-round employment. Persons also are counted as employed if they have a job at
which they did not work during the survey week because of situations such as vacations
or illness.

Title III of the Social Security Act of 1935 requires DOL to oversee and monitor the UI
program to ensure the states operate it effectively and efficiently. This oversight
includes ensuring states do not provide UC to ineligible recipients and ensuring that
states detect these overpayments when they do occur. The UI program represents one
of the largest benefit payment programs in the United States. A total of nearly $318
billion dollars of benefit payments were paid for the three-year period ending September
30, 2010. Of this amount, $126 billion was for federally-funded emergency benefits. A
portion of the emergency benefits ($51.3 billion of the $126 billion) was funded by the
American Recovery and Reinvestment Act of 2009.

            Table 2: Outlays for all UI Programs
                                  2008         2009          2010      Total Outlays
                               Outlays      Outlays       Outlays
            State Benefits     $38,045      $74,856       $63,638            $176,539
            UCFE/UCX 6              722         958         1,321               3,001
            Extended                  2       4,242         7,632              11,876
            Benefits
            EUC                  3,729       32,398       72,157              108,284
            FAC                       0       6,482       11,693               18,175
            Total              $42,498     $118,936     $156,441             $317,875

UI’s rate of overpayments (11.2 percent) was the third largest of any benefits program in
FY 2010. ETA conducts a statistical survey known as the BAM to estimate the rate and
amount of overpayments in the UI program. This report focuses on two of the estimates
produced by the process – an overall estimate of the amount of overpayments that

    UCFE – UC for Federal Employees
6

    UCX – UC for Ex-Service Members

                                                  Missed Opportunities to Detect UI Overpayments
                                             21                     Report No. 18-12-001-03-315
                                            U.S. Department of Labor – Office of Inspector General



occur within the UI programs and an estimate of the amount of overpayments that
should be detected by the states through normal program operations. ETA has
estimated that nearly $32 billion dollars of overpayments exist in the benefits paid for
the 3-year period, of which ETA estimated more than $17.2 billion was recoverable.
ETA defines recoverable overpayments as those most readily detected through state
operations. Furthermore, the amount of UI benefit payments has grown from about
$42.5 billion in 2008 to more than $156 billion in 2010. Much of this growth is attributed
to the following new, temporary federally-funded emergency programs:

   •		 EUC – Since 2008, this program has provided potentially 53 weeks of additional
       benefits to claimants.

   •		 FAC - Since 2009, this program has added $25 in weekly benefit payments to UI
       claimants.

In 2010, the federally-funded emergency programs accounted for nearly $83.9 billion of
the more than $156 billion paid in 2010. State-funded UI programs include state-funded
regular UC, UC for federal employees, and UC for ex-service members. The growth in
the UI program, resulting from several complex laws passed by Congress, presented
formidable challenges to ETA, not only in implementing the UI program, but in detecting
overpayments in UI benefits. ETA attempted to combat these challenges by undertaking
several initiatives designed to improve overpayment detection efforts. The specific
initiatives included:

   •		 Facilitating state implementation of the National Directory of New Hire cross
       match to address the largest cause of UI improper payments – earnings while
       benefits are being paid,

   •		 Hosting a National Unemployment Insurance Integrity Professional Development
       Conference in April 2010 in order to provide a forum for disseminating successful
       practices for preventing, detecting, and recovering UI overpayments,

   •		 Holding 10 training sessions with over 400 state staff during FYs 2008 and 2009
       in order to improve the quality and accuracy of initial UI eligibility determinations,
       and

   •		 Implementing the Separation Information Data Exchange System, which will
       improve the accuracy of claimant eligibility determinations — the second largest
       cause of improper payments — by enabling state agencies to obtain more timely
       and complete information regarding the reasons that UI applicants were
       separated from work.

ETA UI National and Regional offices have responsibility for providing oversight of UI
program operations. To measure whether the 52 states’ (including Puerto Rico and
District of Columbia) processes for detecting UI benefit overpayments were achieving
an Acceptable Level of Performance (ALP), ETA implemented the Improper Payment

                                                  Missed Opportunities to Detect UI Overpayments
                                             22                     Report No. 18-12-001-03-315
                                         U.S. Department of Labor – Office of Inspector General



Detection Core Measure. The measure requires states to identify and set up a minimum
of 50 percent of the “estimate” of recoverable overpayments that exist based on the
statistical BAM process in order to meet the ALP. ETA annually estimates the amounts
of overpayments it believes should be detectable by states through their normal
improper payment detection activities, known as BPC, but not all overpayments are
easily detected or cost beneficial to detect. In FY 2008, ETA required that states who
did not meet the ALP of 50 percent to develop and submit a CAP.




                                               Missed Opportunities to Detect UI Overpayments
                                          23                     Report No. 18-12-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                   Missed Opportunities to Detect UI Overpayments
              24                     Report No. 18-12-001-03-315
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Did the Employment and Training Administration have effective controls over the
detection of overpayments by states for the federally-funded emergency program?

Scope and Methodology

To accomplish our audit objective, we obtained and analyzed ETA’s written policies and
procedures over the Regions Responsibilities, the SQSP, CAPs, BAM (overpayment
estimates), BPC (actual overpayments detected), and Data Validation. We also
conducted interviews and analyzed the oversight and processing of overpayment
detection activities at the ETA National Office in Washington, DC, and ETA Regional
Offices in Atlanta, GA, and Dallas, TX. We used survey questionnaires sent to all ETA
regional offices and states to evaluate the extent of oversight. The audit covered ETA’s
controls over detection of UI overpayments by states for FYs 2008, 2009, and 2010.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases. We performed internal control work in the following
areas: BPC, BAM, and SQSP. During our work, we identified three key controls and
identified weaknesses in those three controls for the federally-funded emergency
benefits. The three key controls include the following: the estimate, the performance
goal, and the plan. We have reported on the deficiencies found in each of the three key
control areas.

We analyzed written policies and procedures concerning improper payments. We
analyzed (1) ETA’s reporting of the federally-funded emergency benefit outlays,
overpayments and estimated overpayments; and (2) ETA’s performance measure with
the state-funded UI programs and compared them to ETA’s performance measure with
all the UI programs to determine which states fell below the ALP in for the three-year
period ending September 30, 2010. We reviewed on-site monitoring reports for all 6
Regions for the 52 states and territories, and one Region’s desk reviews and risk
assessments for 6 states in that Region regarding the EUC and FAC programs to
determine whether the Regions were measuring federally-funded overpayments. We
also reviewed their data validation process for the federally-funded emergency
programs to ensure the data was reliable and accurate.

We did not determine the reliability of the claims and actual improper payment
information that ETA provided to us; we used the best available data at the time of the
report. In addition, while we recognize that ETA’s rate of detection was not statistically
valid for estimating federally-funded emergency benefits, we used the rate in the
absence of a statistically valid rate.



                                                  Missed Opportunities to Detect UI Overpayments
                                             25                     Report No. 18-12-001-03-315
                                         U.S. Department of Labor – Office of Inspector General



We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusions based on our audit
objective.

Criteria

The Overpayments Elimination and Recovery Act (IPERA; Public Law 111-204),
July 22, 2010

OMB Circular A-123, Appendix C

EO 13520

UI Program Letter 14-05 Change 1

ETA Handbook 336




                                               Missed Opportunities to Detect UI Overpayments
                                          26                     Report No. 18-12-001-03-315
                                     U.S. Department of Labor – Office of Inspector General



                                                                            Appendix C
Acronyms

ALP        Acceptable Level of Performance

BAM        Benefit Accuracy Measurement

BPC        Benefit Payment Control

CAP        Corrective Action Plan

DOL        Department of Labor

EO         Executive Order

ETA        Employment and Training Administration

EUC        Emergency Unemployment Compensation

FAC        Federal Additional Compensation

FY         Fiscal Year

IPERA      Improper Payment Elimination and Recovery Act

OIG        Office of Inspector General

OMB        Office of Management and Budget

SQSP       State Quality Service Plan

UC         Unemployment Compensation

UI         Unemployment Insurance




                                           Missed Opportunities to Detect UI Overpayments
                                      27                     Report No. 18-12-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                   Missed Opportunities to Detect UI Overpayments
              28                     Report No. 18-12-001-03-315
                                                       U.S. Department of Labor – Office of Inspector General



                                                                                                        Appendix D
ETA Response to Draft Report



     u.s. Department of Labor                    Assistant Secretary for
                                                 Employment and Training
                                                 Washington, D.C. 20210

           OCT 17 2011

         MEMORANDUM FOR:              ELLIOT P. LEWIS
                                      Assistant Inspector General for Audit

         FROM:                        JANE OATES             >L~ ~
                                      Assistant Secretary fcir ,Employment and Training
                                                              \./

         SUBJECT:                      Review of Draft Interim Report -- Improving Unemployment
                                       Insurance (UI) Overpayment Detection
                                       Draft Interim Report No. 18-12-001-03-315


         Thank you for the opportunity to respond to your report cited above. I would like to reiterate my
         commitment that the Employment and Training Administration (ETA) will continue to work
         with the state workforce agencies to develop administrative policies and procedures that will
         improve the measurement, detection, and recovery of improper payments in the UI program.
         However, we have some concerns about the findings in the report, as well as the basis for some
         of the conclusions, which we have previously shared with Mr. Robert Richardson of your office.

         ETA's responses to your findings and recommendations are described below.


         ETA lacked effective controls over the state's detection of overpayments for the UI Federal
         programs, leaving programs vulnerable to undetected overpayments arising from error,
         fraud, and abuse.

         The integrity of the UI program is a top priority for ETA and the Department broadly.
         Throughout the period of implementation of the Emergency Unemployment Compensation of
         2008 (EUC08) program, the Federal Additional Compensation (FAC) program, and full Federal
         funding of the Extended Benefits (EB) program, ETA has actively worked to ensure states were
         in the best position to implement these programs and pay benefits accurately through extensive
         guidance and intensive technical assistance. All three of these programs were extremely
         complex for states to implement, as is described in more detail in Attachment A. In addition,
         ETA focused the additional resources provided under the American Recovery and Reinvestment
         Act (ARRA) primarily on state monitoring activities, including monitoring program integrity.
         Also, during the course of these programs, ETA has developed an extensive and comprehensive
         strategic plan to improve prevention, detection, and recovery of improper payments for all UI
         programs. The components of this strategic plan are provided in Attaclllnent B.

         Finding 1 - ETA did not establish valid overpayment estimates for Federally-funded
                     emergency benefits.




                                                                    Missed Opportunities to Detect UI Overpayments
                                                         29                           Report No. 18-12-001-03-315
                                              U.S. Department of Labor – Office of Inspector General




Recommendation 2 -      Develop and implement a valid and reliable method for estimating
                        the rate of detectable overpayments in the VI programs.

ETA Response

Implementation of what could be a burdensome state-level data collection and measurement
program to estimate improper payments for the Federal emergency unemployment compensation
programs was not feasible or desirable for the following reasons:

   •   On average, emergency Federal programs during a recession last approximately 18
       months. The time to design a collection program, obtain Office of Management and
       Budget (OMB) clearance under the Paperwork Reduction Act, provide guidance to states,
       and develop information technology (IT) systems at the Department of Labor and in the
       states to implement this methodology would take 18 months at a minimum. Given other
       strains on the system during the Great Recession with respect to staffing and IT
       implementation of the emergency programs, development time would probably have
       been much longer.

   •   While states had additional administrative resources to operate the Federal programs,
       they did not have sufficient capacity to add a new audit program for the newly
       implemented Federal programs. State IT staff was already stretched to the limit to simply
       implement the basic program requirements and the lack of trained program staff forced
       many states to reassign integrity staff, including regular Benefit Accuracy Measurement
       (BAM) staff, to process claims due to the overwhelming workload.

   •   Federal emergency programs differ in their design and, in the case of Emergency
       Unemployment Compensation 2008 (EUC08), the design changed over time with the
       establishment of additional tiers. In addition, the implementation of FAC in 2009
       increased the complexity and design of the program making it impossible to implement a
       uniform methodology for sampling and auditing cases (see Attachment A for details).

With respect to the finding that "ETA provided no documentation to show that OMB actually
approved its methodology to estimate the Federally-funded overpayments based solely on
sampling state-funded benefits," we note that ETA has previously provided information to the
Office of the Inspector General (OIG) which documents that: 1) OMB initiated the request to
apply the BAM improper payment rate estimates to the Federally-funded programs; and 2) OMB
informed ETA that it was "appropriate to report the $119 billion figure since it's consistent to
report the American Recovery and Reinvestment Act funds and additional UI benefits that were
paid to beneficiaries." Additionally, we note that OMB did not require ETA to include
Federally-funded payments in the BAM samples during the fiscal year (FY) 2008 to FY 2010
reporting period and that OMB did not issue complete guidelines for the Improper Payments
Elimination and Recovery Act (lPERA) reporting requirements until April 14, 2011, after the
reporting period included in the OIG audit.

Finding 2 -   ETA did not measure states' effectiveness in identifying Federally-funded
              overpayments.


                                              -2-




                                                     Missed Opportunities to Detect UI Overpayments
                                               30                      Report No. 18-12-001-03-315
                                                U.S. Department of Labor – Office of Inspector General




Recommendation 1 -       Establish a valid performance measure for Federally-funded
                         programs.
ETA Response

While ETA acknowledges the requirement in Executive Order (E.O.) 13520 to measure improper
payments in all programs, we note that there is no requirement in the E.O., the Improper
Payments Information Act (IPIA), or IPERA to establish a performance measure for improper
payment detections. The absence of a performance measure and target does not prevent ETA's
ability to monitor state performance in detection of overpayments. ETA monitors all UI
programs and continuously collects and analyzes data on these programs, including data related
detection of overpayments for all programs. State agencies do not differentiate efforts to
prevent, detect, or recover improper payments among state and Federally-funded programs.
ETA's onsite reviews in the state agencies did not identify any differential treatment of improper
payments among programs.

Section 2(a) of the E.O. requires that OMB:

       [E]stablish, in coordination with the executive department or agency (agency) responsible
       for administering the high-priority program annual or semi-annual targets (or where such
       targets already exist, supplemental targets), as appropriate, for reducing improper
       payments associated with each high-priority program;

Following consultation with OMB, two supplemental improper payment measures were
approved: 1) the BAM Operational Overpayment rate, which is used to estimate detectable and
recoverable overpayments; and 2) the Employment Service Registration rate. ETA would like to
point out that in developing these supplemental measures, ETA made clear to OMB that these
would be based on the BAM survey, which includes only the permanent State UI and Federal
unemployment compensation programs for civilian employees and military service members.

In addition, pursuant to OMB's Requirementsfor Implementing the Executive Order 13520:
Reducing Improper Payments which requires programs designated as "high priority" by OMB to
provide a report to OIG containing information on the agency's efforts to measure and reduce
improper payments, ETA submitted a report to the OIG on March 18,2011 referencing our
methodology for calculating the UI improper payment rate. The report also contained a
comprehensive strategic plan for reducing improper payments. OIG did not raise the issue of a
new methodology for estimating overpayments in the Federal programs at that time.

While ETA did acknowledge that ifthere was an estimation methodology for the Federal programs,
it would be possible to develop a detection performance measure, we also were very clear that it was
not feasible or desirable to implement a new sampling process to estimate overpayments for the
Federal programs for the reasons provided in the response to Recommendation #1 above.


Finding 3 -   ETA could not effectively monitor state performance in identifying Federally­
              funded overpayments.



                                                -3-




                                                       Missed Opportunities to Detect UI Overpayments
                                                 31                      Report No. 18-12-001-03-315
                                              U.S. Department of Labor – Office of Inspector General




Recommendation 3 -      Increase its monitoring regarding improper payment detection
                        activities.

ETA Response

ET A has established a requirement for all states to address UI integrity as part of their State
Quality Service Plans beginning in FY 2012. ETA has also provided states with detailed data on
the root causes of their improper payments and is providing intensive technical assistance to
support the development of comprehensive plans to prevent, detect, and recover UI improper
payments for all UI programs.

ET A routinely collects data from states relative to the detection of overpayments in the
Federally-funded programs. During the period subject to the OIG audit, ETA conducted on-site
reviews in every state and provided necessary technical assistance and support for states'
implementation of the Federally-funded programs.


Finding 4 -   ETA is missing opportunities to detect and collect additional Federally-funded
              overpayments.

Recommendation 4 -      Develop and implement a plan to increase detection efforts over the
                        estimated $5.6 billion detectable overpayments related to Federally­
                        funded emergency benefits that states did not identify in the past 3
                        years.

ET A Response

ETA has been continuously working with states to improve detection of overpayments for all UI
programs and has a dramatically accelerated those activities since the issuance of the EO. A
comprehensive summary of current ETA Ul integrity initiatives to reduce improper payments is
provided in Attaclunent B. In addition to the strategies listed in Attachment B ETA is willing
to examine additional strategies to improve detection in the EUe, Federal Additional
Compensation (F AC). and EB programs.

ETA is committed to detecting and recovering the maximum amount of overpayments in all VI
programs within the resources avaHable. ETA has recently submitted aggressive recovery
targets to OM8 for FY 2011 through 2013, as required by IPERA. AdditionaUy, a new
requirement for all states to address UI integrity as part of their annua1 Stat~ Quality Service
Plans has been established. ETA has provided states with detailed data on the root causes of
improper payments and is providing significant and intensive technical assistance to support the
development of comprehensive plans to prevent, detect, and recover UI improper payments. As
part of that technical assistance, ETA issued a new recommended operating procedure for state
cross matching with the National Directory of New Hires (UI Program Letter 19-11 issued June
10, 2011) designed to enhance both prevention and detection of improper payments.




                                              -4-




                                                      Missed Opportunities to Detect UI Overpayments
                                                32                      Report No. 18-12-001-03-315
                                                U.S. Department of Labor – Office of Inspector General




ET A will explore, and pursue as feasible, the following actions to detect, and establish for
recovery, overpayments in the Federally-funded programs.

1. Retroactive state review of paid claims from Federally-funded programs and follow-up of
matches obtained from state and national new hire directory matches.

State agencies may have in their files matches of claimant Social Security Numbers with new
hire records for payments from Federally-funded programs. However, in many cases follow-up
investigations with the employers and claimants to verify dates of employment and earnings
were deferred because state integrity staff was reassigned to claims taking activities in response
to the sharp increases in workload between 2008 and 2010. States could retroactively conduct
these follow-ups, at a level supported by available resources, to detect additional overpayments
attributable to benefit year earnings or separations due to voluntary quit or discharge for cause
from a benefit-year employer.

If these claims were not submitted for matching at the time the payment was made, the ability of
the states to retroactively cross-match claims from Federally-funded programs with the National
Directory of New Hires (NDNH) is limited by the record retention provisions in the Computer
Matching Agreements that state agencies sign as a condition of matching with the NDNH. The
Social Security Act does not allow the Department of Health and Human Services (HHS) to have
access to new hire, wage, or UI data when 12 months have elapsed since the date the information
was provided, and where there has not been a match resulting from the use of the information in
any information comparison activity. The statute also requires that all NDNH data be deleted
from the database 24 months after the date of entry into NDNH, which limits the data available
for the cross-match to benefits paid that are no older than 24 months.

The states can verify the legal status of claimants through the Systematic Alien Verification for
Entitlement (SAVE) operated within the Department of Homeland Security for those claimants
that may have been paid when their legal status expired. The limitation for this information is 18
months.

States can also verify claimant eligibility for benefits paid by matching against the state's wage
records. However, for the cross-match to be effective, states will have to adjust parameters
within their systems to match across different time periods taking into consideration of any
statutory changes for earnings disregards that may have occurred for those time periods. It
should be noted that the wage record verification is constrained by employer responsiveness to
wage cross-match audits as well as the period of time that the state retains the wage records.
Additionally, these cross-matches are resource intensive for most states due to the lack of
automation in this area. In May, 2011, ETA facilitated the implementation of the State
Information Data Exchange System (SIDES) - Earnings Verification format. The
implementation of this system would make it less labor intensive and will help states with the
retroactive detection of overpayments due to undetected earnings. In FY 2011 , ETA provided
supplemental funding to 12 states to implement the Earnings Verification format.

2. Review of work search activity for claimants receiving EB payments.




                                                -5-




                                                        Missed Opportunities to Detect UI Overpayments
                                                  33                      Report No. 18-12-001-03-315
                                               U.S. Department of Labor – Office of Inspector General




Unemployment Insurance Program Letter No. 12-09, issued in February 2009, reminds states
that they must require EB claimants to conduct a systematic and sustained search for work, and
to submit tangible evidence of such search, as a condition of being eligible for EB for a week.
State agencies could verify their records on claimant work search activities for the weeks
compensated to ensure that the necessary work search requirements were fulfilled. However,
this activity is labor intensive and may be constrained by resources available to the state
agencies.

3. Recovery ofFAC overpayments.

We are aware that a number of states encountered significant technology challenges with the
implementation of FAC, including ensuring mechanisms to establish overpayments. ETA
continues to monitor state implementation of FAC and provide technical assistance as
appropriate. In those cases where states were unable to establish overpayment processes for
FAC, states could seek retroactive recovery ofFAC payments for those overpayments
established for state and Federal unemployment compensation program claims. FAC was
payable on any claim for which the claimant received at least $1 in benefits. FAC could be
recovered for any established overpayment that completely disqualified the claimant (partial
overpayments, in which the claimant was still entitled to a portion of the benefit, would not be
included as long as the claimant retained eligibility for at least $1). As with other retroactive
detection activities, there will be significant administrative overhead involved in identifying
these payments and capacity issues related to the information technology processes necessary to
implementation of this strategy. Contacting the claimants, many of whom will likely be difficult
to locate given the elapsed time, will pose a significant challenge and require the investment of
significant state agency staff time.

ETA has carefully examined other detection activities to retroactively detect and establish for
recovery overpayments for the Federally-funded programs. However, there are significant
barriers and challenges for all of these activities.

   •   Additional overpayments from prior years could be detected by selecting samples of
       claims to review and investigate in a manner similar to the BAM investigations.
       However, this would be extremely resource intensive and would not be cost effective.
       The time and cost to investigate EUC08 and EB claims would be considerably higher
       than that for the regular UI program due to the complexity of these programs and the
       follow-up efforts that would be required to locate claimants and employers and obtain
       documentation for eligibility at the time the payment was made. Many states have been
       using their most experienced UI staff to operate and manage the EUC08 and EB
       programs, which are still ongoing. These same staff would likely be needed to work on
       any new detection efforts, which then could jeopardize ongoing EUC08/EB program
       operations.

   •   While we understand states have been cross-matching all claims including regular UI,
       EUC08, and EB, not all states have done so with the same frequency. It is possible that
       additional cross-matching could be conducted. However, because of the extensive time
       and resources required to investigate these matches (potential leads), we do not believe


                                               -6-




                                                       Missed Opportunities to Detect UI Overpayments
                                                 34                      Report No. 18-12-001-03-315
                                                 U.S. Department of Labor – Office of Inspector General




        that states have the resources to conduct these additional investigations. Also, as noted
        above, there are statutory barriers reflected in the Computer Matching Agreements
        between the state agencies and HHS that limit access to records in the NDNH.

    •   Federal law allows for overpayment waivers under certain circumstances for non-fraud
        EUC08 overpayments. There are 35 states that have waiver provisions for regular UI
        compensation in their state UI law. These state provisions may be applied to non-fraud
        EUC08 and EB overpayments under certain circumstances. Thus, it is expected that
        some overpayments from prior years that could be identified through new detection
        efforts would not necessarily result in significant recoveries of these benefits.

    •   Furthermore, there are state finality rules (time limitations) that will prohibit states from
        retroactively establishing overpayments. These finality provisions vary among states, but
        based on BAM data these would apply to about 12 percent of the estimated
        overpayments.

With respect to overpayment recovery for the Federally-funded programs, ETA agrees with the
OIG's observation that recoveries would probably be lower than the recovery rate for the
permanent state and Federal UI programs, given the statutory limitation of offsetting only 50
percent of future EUC program payments as a recovery method. ETA has identified additional
factors that impede recoveries of overpayments for the Federally-funded programs:

    •   Many of these claimants have exhausted benefits and states are therefore unable to offset
        overpayments against their unemployment compensation payments, which is a primary
        method used by states for overpayment recovery.

    •   Claimants who have been unemployed for long durations have few resources available
        for the repayment of overpayments.

    •   The severe decline in the economy and employment situation negatively impacted the
        primary tools that states have used to recover overpayments, which are by garnishing
        wages, income tax offsets, and attaching liens to an individual's property to recover the
        overpayments when the property is sold.

The OIG report cites an ETA cost-benefit study conducted in 2001 to support its analysis of the
expected increases in overpayment detections as a result of additional investment of resources. It
should be noted that this study was based on the permanent state and Federal programs, not
temporary emergency and episodic programs, such as EUC08 and EB, and was conducted in a
significantly different economic environment, in which state agency resources were not stressed
due to increased workload. Replication of this study for the recent recessionary period would
likely yield significantly different results.

ETA will continue its aggressive work with states to improve the prevention, detection, and
recovery of all UI overpayments with emphasis on Federally-funded programs, as well as
address this issue in state reviews as they are scheduled. Additionally, we will continue to
collect data submitted by the states on their overpayment detection and recovery activities to the


                                                -7-




                                                        Missed Opportunities to Detect UI Overpayments
                                                  35                      Report No. 18-12-001-03-315
                                                U.S. Department of Labor – Office of Inspector General




extent supported by our existing data collection and reporting systems, and utilize that data to
support state monitoring and oversight of improper payment detection and recovery.

Again, thank you for the opportunity to share our comments and thoughts on your report. If you
have questions, please contact Gay Gilbert, Administrator, Office of Unemployment Insurance,
at 202-693-3029.




                                                -8-




                                                       Missed Opportunities to Detect UI Overpayments
                                                 36                      Report No. 18-12-001-03-315
                                               U.S. Department of Labor – Office of Inspector General




                                                                                 Attachment A

Implementation Issues for the Establishment of a Data Collection Program to Measure the
  Accuracy of Federally Funded Emergency Unemployment Compensation Programs

History ofEUC 2008 Implementation

The Supplemental Appropriation Act 0 f2008 (Public Law 110-252), Title IV-Emergency
Unemployment Compensation (EUC08), was signed by the President on June 30, 2008. During
the months leading up to the signing and implementation of the law that authorized EUC08
benefits to all states, the National and Regional offices of the Employment and Training
Administration (ETA) worked closely with the states to prepare them for implementation of the
legislation. The requirements and provisions of the EUC08 program were not specified until
final passage of the legislation. The Department provided generic guidance to the states in
advance of the enactment to ensure that all states, many of which have aging UI computer
benefit systems that cannot be easily adapted to new requirements, would be able to pay benefits
once the program became law. The Department issued twenty separate Unemployment
Insurance Program Letters (UIPLs) over the ensuing two and one-half years to provide guidance
on how to implement and execute the law and all of its subsequent additions, modifications, and
extensions.

The first EUC-related UIPL was issued less than a week after the law was signed (UIPL No. 23-
08, July 6, 2008), which provided states with instructions for implementing the legislation and
operating the EUC08 program, including fiscal and reporting instructions. The EUC08 program
initially provided up to 13 weeks of 100 percent Federally-financed compensation to eligible
individuals in all states. EUC08 was payable to individuals who (1) have exhausted all rights to
regular compensation with respect to a benefit year that ended on or after May 1,2007; and (2)
have no rights to regular compensation or Extended Benefits (EB). To qualify for EUC08
benefits, individuals must have had been employed at least 20 weeks, or the equivalent in wages,
in their base periods. Continuing eligibility is determined under the requirements of the
individual state's law. As agents of the United States in administrating the EUC08 program,
states had to follow the instructions and guidance that were provided in the Department's
advisories.

The EUC08 program became effective in July 2008 and was due to expire with the last week
payable for the week ending June 27, 2009. In response to worsening economic conditions,
Congress enacted numerous extensions and modifications to the program. A second tier of
benefits was added to the initial 13 weeks, and third and fourth tiers were subsequently added.
In February 2009, Congress enacted the American Recovery and Reinvestment Act, which
established the Federal Addition Compensation (FAC) program, which provided an additional
payment of$25 per week to every claimant's weekly benefit payment. The EUC08 program is
currently scheduled to phase-out beginning January 3, 2012.

Throughout all ofthe changes, the Department worked intensively with the states to give them
guidance and to ensure that the states would be able to implement the programs in a timely and


                                             - A-l-




                                                      Missed Opportunities to Detect UI Overpayments
                                                37                      Report No. 18-12-001-03-315
                                               U.S. Department of Labor – Office of Inspector General




accurate fashion. The proper payment of benefits is of paramount importance in not only the
regular State VI and Federal unemployment compensation programs for civilian employees and
military service members, but also in the EVC08, F AC, and EB programs. The same
crosschecks, claims audits, and work search requirements apply to both the permanent state and
Federal programs and the Federally-funded emergency programs. In fact, for the EB program,
stricter work search requirements are in place to attempt to ensure that claimants return to the
workforce as soon as possible.

All aspects of the original claim are subject to the agencies' review, crosscheck, and audit
processes and are subject to selection for the Benefit Accuracy Measurement (BAM) review
process. The agencies conduct weekly eligibility, work search verification, and other eligibility
reviews for the EB and EVC08 claims. Generally, these eligibility reviews are in the same
manner and extent as they do for regular claim, except for the EB program which has a more
rigorous requirement for verifying work search than in most states.

Once all states were paying EVC08, the Department continued to emphasize the accuracy and
timeliness of all payments. In response to significant increases in workload -- in some cases
quadrupling within a year -- states reassigned some of their tax and Benefit Payment Control
(BPC) staff to the claims taking, adjudication, and payment processes. Benefit payouts increased
five-fold while the number of people assigned to the integrity functions remained the same, or
even decreased. Department staff continued to provide technical assistance to try to maximize
the effectiveness of the integrity staff, while ensuring that benefit payments were made properly
and expeditiously. Many of the overpayments which occurred during the 2008 to 2010 period
are just now being established and collected as staff work the backlog of overpayments detected
through cross-matches and interstate audits. The Department's continued monitoring, assistance,
and integrity function emphasis will ensure a quality program.

Management Challenges

The history of implementing the EVC08 program, which was discussed in detail above, as well
as the operational contingencies presented by the macroeconomic conditions of2008 to 2010
presented formidable challenges to the Department. Although the Department has not conducted
a formal cost-benefit study, our management and technical analyses have identified several
significant issues associated with modifying the BAM and BPC programs to support the
coverage of temporary and episodic programs. These issues are discussed below.

Operational Costs



In order to produce estimates at a degree of precision comparable to BAM paid claims estimates,
sample allocations of 360 cases in the ten smallest states and 480 cases in the other 42 states
conducting BAM would be required - a total of23,760 cases nationally.

For paid claims, state investigators spend 5.1 hours, on average, to complete a BAM paid claims
investigation, with an additional 3.17 hours for coding and entering data into a computerized


                                              - A-2-




                                                       Missed Opportunities to Detect UI Overpayments
                                                38                       Report No. 18-12-001-03-315
                                                U.S. Department of Labor – Office of Inspector General




database, reviewing completed cases, and transmitting the data to the Department, for a total of
8.27 hours per investigation. Therefore, a total of 196,495.2 staff hours are required to complete
the BAM audits. In fiscal year 2011, state staff costs are estimated to be $40.81 per hour. This
translates to a direct cost of just over $8 million, which does not take into account additional
supervisory overhead and information technology (IT) costs.



Additional overpayments from prior years could be detected by pulling samples of claims to
review and investigate in a manner similar to the BAM investigations. However, this would be
extremely resource intensive and possibly would not be cost effective. The time and cost to
investigate EVe08 and EB claims would be considerably higher than that for the regular VI
program due to the complexity of these. Many states have reassigned their most experienced VI
staff to operate and manage the EVe08 and EB programs, which are still ongoing. These same
staff would likely be needed to work on any new detection efforts, which could then adversely
affect ongoing EVe/EB program operations.

Although states have continued to cross-match all claims including regular VI, EVe08, and EB,
not all states have done so with the same frequency. It is possible that additional cross-matching
could be conducted. However, because of the extensive time and resources required to
investigate these matches (potential leads) we do not believe that states have the resources to
conduct these additional investigations.

Also, federal law allows for overpayment waivers under certain circumstances for nonfraud
EVe08 overpayments. There are 35 states that have waiver provisions for regular compensation
in their state VI law, and these state provisions may be applied to nonfraud EVe08 and EB
overpayments under certain circumstances. Thus, it is likely that Some overpayments from prior
years that could be identified through new detection efforts would not necessarily result in
significant recoveries of these benefits.

Furthermore, state finality rules (time limitations), which vary from state to state, will preclude
states from retroactively establishing some overpayments. Based on BAM data finality
limitations would affect about 12 percent of the estimated overpayments.

IT Issues

•           Assuming a new sampling program is developed and distributed to the states, the
    states would have to undertake extensive programming to create the extract files of the
    EVe08 and EB program payments from their state management records systems. Because of
    the legal requirement to pay benefits to eligible claimants "when due," in periods of high
    unemployment states make every effort to pay claims as expeditiously as possible.
    When emergency programs are enacted, states are more likely to prioritize the use of their
    scarce IT resources to implement the operational and eligibility requirements of the
    temporary extended benefits programs rather than divert these scarce resources to support
    sample selection and audit activity.



                                               - A-3-




                                                        Missed Opportunities to Detect UI Overpayments
                                                  39                      Report No. 18-12-001-03-315
                                                U.S. Department of Labor – Office of Inspector General




Staffing Issues

Both BAM and BPC share staffing challenges: 1) the lack of experienced / trained staff during
periods of high workloads; 2) the inability to hire additional staff in a timely manner; and 3) the
need to reassign staff from integrity to claims taking functions. These are discussed in more
detail.

•           By definition, extended and temporary unemployment compensation (UC) programs
    are implemented in response to sharp increases in workload. During these periods of high
    workload, state agencies reallocate staff from integrity activities, such as establishing
    overpayments and conducting claims audits, to claims taking functions. During the most
    recent recession, 23 states reduced their BAM samples by one staff year to free staff for
    claims processing. Two states - Colorado and Montana - completely suspended BAM
    operations for several months, creating gaps in integrity measurement in these states.

•           In addition, temporary programs such as EUC08 depend on Congressional action.
    These programs vary in their design and are subject to extensions or expansions. As
    discussed above, historically, each of these temporary emergency programs has unique
    eligibility and operational characteristics. Therefore, it is very difficult to plan for and
    anticipate these programs.

•               In order to measure the accuracy of extended and temporary UC programs, states
    need to add staff. However, because the economic conditions that result in increases in
    workload also reduce state revenues, many states institute hiring freezes, furloughs, or
    layoffs to reduce staff costs. Many states, in spite of the Department's explicit admonitions
    in public guidance, apply these policies even to positions that are fully funded by the Federal
    government. Therefore, even if the Congress were to appropriate the additional
    administrative resources needed to measure the accuracy of payments from the temporary
    emergency and extended benefit programs, it is likely states would face challenges in
    utilizing funds for that purpose.

•           Because the enactment and extension of extended and temporary UC programs is
    uncertain, those states that do agree to add staff will begin the hiring process after these
    programs have been implemented. States will also have to incur costs to train these new staff
    in the audit methodology to ensure that the audit results are reliable.

Operational Issues

•   If states are to conduct additional reviews of temporary and episodic UC program claims, the
    best tool to detect claiming while earning (Benefit Year Earnings or BYE) issues is National
    Directory of New Hires (NDNH) matching. The Social Security Act does not allow the
    Department of Health and Human Services (HHS) to have access to new hire, wage, or ill
    data when 12 months have elapsed since the date the information was provided, and where
    there has not been a match resulting from the use of the information in any information
    comparison activity.

                                                - A-4-




                                                         Missed Opportunities to Detect UI Overpayments
                                                  40                       Report No. 18-12-001-03-315
                                                U.S. Department of Labor – Office of Inspector General




•   In addition, the Computer Matching Agreement that each state signs as a condition of
    accessing NDNH data requires independent verification of employment while claiming
    indicated by the NDNH match. Verification ofNDNH matches is labor intensive, and it is
    reasonable to assume that the costs of locating employers and claimants for these older
    claims would be significantly higher than the verification costs of contemporary claims.
    State agencies will be unable to take official action to establish overpayments for recovery
    without this costly and time consuming independent verification. It is likely that due to the
    passage of time, many of these matches will not be verifiable.

Regulatory Authority

The regulation establishing a Quality Control program for VI (20 CFR part 602) provides
authority for the Department to waive components of the program based on cost or operational
considerations. Given the resource and operational issues discussed above, ETA has taken the
position, under authority of the regulation quoted below, that the extension of BAM to include
temporary and episodic VC programs is not cost-beneficial.

        § 602.22 Exceptions.

       If the Department determines that the QC program, or any constituent part of the QC
       program, is not necessary for the proper and efficient administration of a State law or in
       the Department's view is not cost effective, the Department shall use established
       procedures to advise the State that it is partially or totally excepted from the specified
       requirements of this part. Any determination under this section shall be made only after
       consultations with the State agency.

Paperwork Reduction Act

The Department is required to obtain OMB authorization under the Paperwork Reduction Act
(PRA) to implement new data collection programs. The PRA process involves pilot testing the
proposed methodology to collect cost and staff hour data to conduct the program. The public
(claimants, employers, state agencies) must be given an opportunity to comment on the proposed
data collection burden. This process is estimated to take one to one and a half years to complete.




                                               - A-5-




                                                        Missed Opportunities to Detect UI Overpayments
                                                 41                       Report No. 18-12-001-03-315
                                              U.S. Department of Labor – Office of Inspector General




                                                                                    Attachment B

      Addressing Improper Payments in the Unemployment Insurance (UI) Program

The Employment and Training Administration (ETA), working with our state partners, has been
focused for many years on implementing strategies to detect, prevent, and recover UI improper
payments and bring down the improper payment rate. These strategies include:

       Implementation of New Performance Measures - New state performance measures
       and strategies which: 1) target reducing BYE improper payments when claimants claim
       five weeks or more after returning to work by 30 percent the first year, and a total of 50
       percent after two years; 2) targets a reduction of improper payment rates higher than 10
       percent; and 3) establishes a recovery target for overpayments.

       Treasury Offset Program (TOP) - TOP permits states to recover UI overpayments
       due to fraud by offsetting the claimant's Federal income tax refund. To date, three states
       have implemented the UI TOP program for recoveries (Michigan, New York, and
       Wisconsin) and an additional 25 states will implement TOP as a result of the recent
       supplemental funding.

       Enhanced Use of National Directory of New Hires (NDNH) with Recommended
       Operatin~ Procedures (ROP) - For several years, ETA has encouraged states' use of
       the NDNH to reduce improper payments in the UI program. Recommended Operating
       Procedures (SOP) has been developed and provided to states with information about best
       practices in conducting this match. Any states not already doing so will be required to
       begin conduct cross-matches using NDNH by December 2011 and all states are strongly
       encouraged to implement procedures in-line with the ROPs.

       Claimant and Employer Messa~~ - Implementation of a statewide claimant and
       employer messaging campaign designed to: 1) improve claimants' awareness of their
       responsibility to report any work and earnings if they are claiming benefits, 2) improve
       claimants' understanding of work search requirements as a condition of eligibility for
       benefits, and 3) improve employers' awareness of their responsibility to respond to state
       requests for separation information and/or earnings/wage verifications. The state's
       campaign must consider how it may incorporate the messaging products and tools that
       are currently in development and will be shared with states when completed.

       State Information Data Exchan~e System (SIDES) - SIDES is a web based system
       that allows electronic transmission ofUI information requests from UI agencies to multi­
       state employers and/or Third Party Administrators, as well as transmission of replies
       containing the requested information back to the UI agencies. The current
       implementation of SIDES allows for the exchange of Separation and earnings verification
       information.

       Cross-Functional Task ForcesNirtual Institutes - These are cross-functional teams
       that include a combination of management, front-line workers, and state subject matter


                                               B-1




                                                      Missed Opportunities to Detect UI Overpayments
                                               42                       Report No. 18-12-001-03-315
                                       U.S. Department of Labor – Office of Inspector General




experts that will assess and address root causes of improper payments in individual states.
The key objectives for these task forces is to have every state focus on the root causes of
overpayments that have the highest impact in the state and use this process to inform
strategic planning that will achieve immediate and meaningful reductions in the improper
payment rate.

Hi~h Priority States - Beginning in 2011 and annually thereafter, ETA will identify
the states with persistently high improper ur payment rates as "High Priority" and
provide targeted and customized technical assistance to improve their performance. ETA
will work closely with these states to identify the impediments, action steps, and
technical assistance strategies to improve performance with a specific focus on
prevention. High Priority states will be subject to additional monitoring and technical
assistance until they achieve an improper payment rate under 10% and sustain that
performance for at least six months.

State Quality Service Plan (SQSP) / Strate~ic Plan Development - The SQSP is
intended to be a dynamic document states use not only to ensure strong program
performance, but also to guide key management decisions, such as where to focus
resources. The SQSP should focus state efforts to ensure well-balanced performance
across the range ofUr activities. The SQSP also is designed to be flexible so as to
accommodate, among other things, multi-year planning and significant changes in
circumstances during the planning cycle. States can use this flexibility to incorporate the
elements from the strategic plans developed by their Cross-Functional Task Forces into
the SQSP to address improper payments.

Employment Service (ES) Re~istration - Providing technical assistance to states with
high ES registration errors and implementing technology or other solutions designed to
address improper payments due to a claimant's failure to register with the state's
Employment Service or job bank in accordance with the state's ur law.

Supplemental Budget Requests (SBRs) - ETA has offered states the opportunity to
apply for supplemental funding targeted to support integrity activities including
automation to address specific overpayment root causes and core integrity strategies to
support prevention, detection and recovery of overpayments. Since 2009, ETA has
provided $10 l.l million in supplemental funding to states to support integrity-related
projects.
o FY 2011: $63.5 million
o FY 2010: $10.7 million
o FY 2009: $26.9 million




                                        B-2




                                               Missed Opportunities to Detect UI Overpayments
                                        43                       Report No. 18-12-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                   Missed Opportunities to Detect UI Overpayments
              44                     Report No. 18-12-001-03-315
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Robert Richardson (Acting Audit Director), Melissa
Young (Auditor-in-Charge), Laura Brockway, Dorothy Dorsey, Cory Grode, Ronald
Larry, Sarah Pentecost, Aaron Talbert (Auditors), and Steve Witherspoon (Reviewer).




                                                Missed Opportunities to Detect UI Overpayments
                                           45                     Report No. 18-12-001-03-315
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:		 1-800-347-3756
             202-693-6999

Fax: 	       202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor 

         200 Constitution Avenue, N.W. 

         Room S-5506             

         Washington, D.C. 20210 

